February 13, 2009

KELLY M. SIGMON
DISTRICT MANAGER, SOUTHEAST MICHIGAN CUSTOMER SERVICE DISTRICT

SUBJECT: Audit Report – Metroplex Processing and Distribution Center Activation
         (Report Number NO-AR-09-004)

This report presents the results of our audit on the adequacy of the activation of the new
Metroplex Processing and Distribution Center (P&DC) in Pontiac, MI (Project Number
08XG043NO000). Our objective was to determine whether the U.S. Postal Service
complied with activation requirements for mail processing at the new Metroplex P&DC.
This audit is the third and final report in a series and was conducted in cooperation with
the Great Lakes Area. See Appendix A for additional information about this audit.

Conclusion

The activation team did a commendable job on the site activation of the Metroplex
P&DC. They successfully completed all activation requirements for mail processing, as
outlined in the Facility Activation – Master Plan, dated July 21, 2003.

However, while completing our work, we noted that service scores for the Metroplex
P&DC dropped or were fluctuating during the site activation, which took place from May
to July 2008. While some improvement in service scores was made following the
completion of the activation, the scores continued to trend below national composite
averages through December 2008.

As of January 13, 2009, service scores had increased and were close to or above the
national composite averages. This indicates that the Metroplex P&DC is recovering
from the impact of their move into the new facility. See Appendix B for our detailed
analysis of this topic, including charts that show service score trends.1




1
    The charts show service scores through January 13, 2009.




                                               Restricted Information
Metroplex Processing and Distribution Center Activation                                         NO-AR-09-004



Compliance with Activation Requirements

The site activation team successfully completed the 11 requirements in the Facility
Activation – Master Plan. Those activation steps are as follows.

    •   Establishing an activation coordinator/committee.

    •   Determining staffing levels.

    •   Identifying training and equipment requirements.

    •   Creating an employee orientation and a supervisor’s guide.

    •   Implementing acceptance of business mail at the facility for bulk mailers.

    •   Reviewing the operating plan and contingency plan.

    •   Tracking the Decision Analysis Report (DAR)2 return on investment.

Further, 1,158 employees were successfully placed in new positions in the organization,
and mail processing operations from four former facilities were moved into a single new
facility. The Great Lakes Area organized a move team made up of area and district
maintenance employees to move and install equipment, which freed local Metroplex
P&DC maintenance employees to continue day-to-day operations. Because
management has successfully completed all requirements related to mail processing
during the site activation, we are making no recommendations in this report.

Management reviewed a draft copy of this report and did not suggest any changes or
wish to provide a written response.




2
  The sponsor or requesting organization prepares a DAR recommending an investment and gives the approving
authority adequate information to make a prudent business decision. The DAR explains the background and purpose
of the program and fully documents cost and benefit estimates.



                                                       2
                                            Restricted Information
Metroplex Processing and Distribution Center Activation                    NO-AR-09-004



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Anthony M. Pajunas
    David E. Williams, Jr.
    Jo Ann Feindt
    Katherine S. Banks




                                                     3
                                          Restricted Information
Metroplex Processing and Distribution Center Activation                                          NO-AR-09-004



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

At the end of the first quarter of fiscal year (FY) 2009, the Postal Service saw a decline
in the total mail volume of 5.2 billion pieces or a 9.3 percent decline, resulting in a net
loss of $384 million. In testimony before Congress on January 28, 2009, Jack Potter,
Postmaster General, stated the Postal Service is having financial difficulties due to the
current economic climate and may need to temporarily reduce mail delivery to five days.
In addition, Potter advised the Board of Governors in February 2009 that the Postal
Service is taking bold steps to reduce cost and is examining, realigning and streamlining
its business in order to address longer term financial pressures.

Since 1974, the Troy-Royal Oak P&DC has processed mail for ZIP Code areas 480 and
483. However, continuing volume growth and automation changes resulted in severe
overcrowding and fragmentation of the Troy-Royal Oak P&DC operations. Various mail
processing operations and equipment were deployed to existing and newly leased and
constructed facilities to reduce space deficiencies. However, these changes increased
transportation costs and reduced operational efficiency.

Therefore, in November 2005, the Board of Governors approved construction of a new
building consisting of 803,325 square feet on a 70-acre site. The $224 million building
consolidated mail processing operations that had been performed in four different
buildings.3




3
 The four buildings were the Troy-Royal Oak P&DC, Troy-Royal Oak Annex, Troy Delivery & Distribution Center, and
Troy Delivery & Distribution Center Number 2.



                                                       4
                                            Restricted Information
Metroplex Processing and Distribution Center Activation                     NO-AR-09-004




                         New Metroplex Processing and Distribution Center


The Metroplex P&DC completed activation in July 2008, and processes approximately
4.8 million pieces of mail daily for ZIP Codes 480 and 483. Management stated the new
facility would alleviate space deficiencies, increase operating windows, and reduce
transportation and labor costs, while increasing service and productivity. The Metroplex
P&DC, an environmentally friendly facility, supports recycling programs by using green
cleaning products and recycling 140 to 160 tons of paper and 20 to 30 tons of
cardboard monthly.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service complied with activation
requirements at the Metroplex P&DC for mail processing. To achieve this objective, we
analyzed the facility activation plan, mail volumes, service scores, trends in delayed
mail, training records, and the operating plan. We interviewed Postal Service officials
and employees and used computer-processed data from the Web Enterprise
Information System and the Enterprise Data Warehouse. We did not test controls over
these systems. However, we checked the reasonableness of results by confirming our
analyses and results with Postal Service managers and multiple data sources.

We conducted this performance audit from September 2008 through February 2009 in
accordance with generally accepted government auditing standards and included such


                                                     5
                                          Restricted Information
      Metroplex Processing and Distribution Center Activation                                   NO-AR-09-004



      tests of internal controls as we considered necessary under the circumstances. Those
      standards require that we plan and perform the audit to obtain sufficient, appropriate
      evidence to provide a reasonable basis for our findings and conclusions based on our
      audit objective. We believe that the evidence obtained provides a reasonable basis for
      our findings and conclusions based on our audit objective. We discussed our
      observations and conclusions with management officials on October 31, 2008, and
      included their comments where appropriate.

      PRIOR AUDIT COVERAGE

       Report Title         Report Number          Final Report Date                  Report Results
Activation of the           NO-AR-08-004             July 10, 2008       The Postal Service did not implement
Philadelphia Processing                                                  some key activation steps, resulting in
and Distribution Center                                                  significant delayed mail and service
                                                                         degradation.
Oklahoma City                NO-AR-08-009         September 23, 2008     The Postal Service did a
Processing and                                                           commendable job of implementing all
Distribution Center                                                      but one of the activation steps. This,
Activation                                                               however, could result in mail delays
                                                                         and service degradation.




                                                           6
                                                Restricted Information
Metroplex Processing and Distribution Center Activation                                                                   NO-AR-09-004



                                                             APPENDIX B: SERVICE SCORES

                                                   Metroplex P&DC and National Composite Overnight EXFC Scores
                                                             (Site Activation May 21, 2008 - July 21, 2008)


                             98.00


                             97.00


                             96.00
  Percent Meeting Standard




                             95.00


                             94.00


                             93.00


                             92.00


                             91.00


                             90.00


                             89.00
                                      FEB   MAR       APR      MAY      JUN     JUL       AUG       SEP    OCT    NOV    DEC     JAN
                                     2008   2008      2008     2008    2008    2008       2008      2008   2008   2008   2008   2009
                                                                                  Month Of

                                                                              Metroplex      National




                                                                                 7
                                                                      Restricted Information
Metroplex Processing and Distribution Center Activation                                                                 NO-AR-09-004




                                                   Metroplex P&DC and National Composite 2 Day EXFC Scores
                                                           (Site Activation May 21, 2008 - July 21, 2008)

                             98.00

                             96.00

                             94.00

                             92.00
  Percent Meeting Standard




                             90.00

                             88.00

                             86.00

                             84.00

                             82.00

                             80.00

                             78.00

                             76.00
                                      FEB   MAR      APR     MAY      JUN     JUL       AUG       SEP    OCT    NOV    DEC     JAN
                                     2008   2008     2008    2008    2008    2008       2008      2008   2008   2008   2008   2009
                                                                                Month Of

                                                                            Metroplex      National




                                                                               8
                                                                    Restricted Information
Metroplex Processing and Distribution Center Activation                                                                NO-AR-09-004




                                                    Metroplex P&DC and National Composite 3 Day EXFC Scores
                                                            (Site Activation May 21, 2008 - July 21, 2008)


                             100.00




                              95.00
  Percent Meeting Standard




                              90.00




                              85.00




                              80.00




                              75.00
                                       FEB   MAR    APR     MAY      JUN     JUL       AUG       SEP    OCT    NOV    DEC     JAN
                                      2008   2008   2008    2008    2008    2008       2008      2008   2008   2008   2008   2009
                                                                               Month Of

                                                                           Metroplex      National




                                                                              9
                                                                   Restricted Information
